Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK
COUNTY OF NEW YORK

)
) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 12/23/2020 deponent caused to be served 3 copy(s) of the within
Brief of the American Statistical Association as Amicus Curiae
in Support of Respondents Prometheus Radio Project, et al.
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

By Overnight Delivery

Ruthanne M. Deutsch
DEUTSCH HUNT PLLC
Counsel of Record for Respondents
Prometheus Radio Project, et al.
300 New Jersey Avenue, NW,
Suite 900
Washington, DC 20001
Phone: 202-868-6915

Helgi C. Walker
GIBSON, DUNN &
CRUTCHER LLP
Counsel of Record for Petitioners
National Association of
Broadcasters, et al.
1050 Connecticut Avenue, NW
Washington, DC 20036
Phone: 202-955-8500

ANDREW JAY
SCHWARTZMAN, ESQ.
Counsel of Record for Respondents
Benton Institute for Broadband &
Society, et al.
1341 G Street, NW, 5th Floor
Washington, DC 20005
Phone: 202-241-2408

By Overnight Delivery

By Overnight Delivery

By Overnight Delivery
JACK N. GOODMAN, ESQ.
Counsel of Record for Respondent
Independent Television Group
1200 New Hampshire Avenue, NW,
Suite 600
Washington, DC 20036
Phone: 202-776-2045

Sworn to me this
Wednesday, December 23,
2020
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Dennis Lane
STINSON LLP
Counsel of Record for Respondents
Multicultural Media, Telecom and
Internet Council, et al.
1775 Pennsylvania Avenue, NW,
Suite 800
Washington, DC 20006
Phone: 202-785-9100

Jeffrey B. Wall,
Acting Solicitor General
OFFICE OF THE SOLICITOR
GENERAL
Counsel of Record for Petitioners
FCC, et al.
950 Pennsylvania Avenue, NW
Washington, DC 20530
Phone: 202-514-2203

Case Name: Federal Communications Commission v.
Prometheus Radio Project
Docket/Case No: 19-1231 and 19-1241
Index:

